Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   QUESTIONABLE BILLING
  FOR MEDICAID PEDIATRIC
     DENTAL SERVICES
       IN LOUISIANA




                        Suzanne Murrin
                  Deputy Inspector General for
                   Evaluation and Inspections

                        August 2014
                       OEI-02-14-00120
EXECUTIVE SUMMARY: QUESTIONABLE BILLING FOR MEDICAID
PEDIATRIC DENTAL SERVICES IN LOUISIANA
OEI-02-14-00120

WHY WE DID THIS STUDY
Medicaid is the primary source of dental coverage for children in low-income families
and provides access to dental care for approximately 37 million children. In recent years,
a number of dental providers and chains have been prosecuted for providing unnecessary
dental procedures to children with Medicaid and causing harm to them in the process.

HOW WE DID THIS STUDY
We based our analysis on Louisiana Medicaid fee-for-service paid claims for general
dentists and oral surgeons who provided services to 50 or more children in 2012. Using
several measures, we identified dental providers with questionable billing who are
extreme outliers when compared to their peers.

WHAT WE FOUND
We identified 26 general dentists and 1 oral surgeon in Louisiana with questionable
billing. These providers are extreme outliers when compared to their peers. Medicaid
paid these providers $12.4 million for pediatric dental services in 2012.

These 27 dental providers—representing 5 percent of the providers we reviewed—
received extremely high payments per child; provided an extremely large number of
services per day; provided an extremely large number of services per child per visit;
and/or provided certain selected services to an extremely high proportion of children.
These services included pulpotomies—often referred to as “baby root canals”—and
extractions. Notably, almost a third of the providers with questionable billing worked for
two dental chains. A concentration of such providers in chains raises concerns that these
chains may be encouraging their providers to perform unnecessary procedures to increase
profits. In addition, four of the providers with questionable billing had actions taken
against them by the State Board of Dentistry.

Further, our findings raise concerns that certain providers may be billing for services that
are not medically necessary or were never provided. They also raise concerns about the
quality of care provided to children with Medicaid. Although some of their billing may
be legitimate, providers who bill for extremely large numbers of services warrant further
scrutiny.

WHAT WE RECOMMEND
We recommend that the Louisiana Department of Health and Hospitals (1) enhance its
monitoring of dental providers to identify patterns of questionable billing and (2) take
appropriate action on the dental providers identified as having questionable billing. The
Louisiana Department of Health and Hospitals concurred with both of our
recommendations.
TABLE OF CONTENTS

Objective ......................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................4 

Findings........................................................................................................7 

           Twenty-six general dentists and one oral surgeon in Louisiana 

           had questionable billing in 2012 ......................................................7 

Conclusion and Recommendations ............................................................... 12 

           Agency Comments and Office of Inspector General Response ....... 14 

Appendix ....................................................................................................... 15 

           Agency Comments ........................................................................... 15 

Acknowledgments .........................................................................................17

                   OBJECTIVE
                   To identify dental providers with questionable billing for Medicaid
                   pediatric dental services in Louisiana in 2012.

                   BACKGROUND
                   Medicaid is the primary source of dental coverage for children in
                   low-income families and provides access to dental care for approximately
                   37 million children.1,2 Medicaid’s Early and Periodic Screening,
                   Diagnostic, and Treatment (EPSDT) benefit requires States to cover all
                   medically necessary dental services for children 18 years of age and
                   under.3 Medicaid dental services must include diagnostic and preventive
                   services, as well as needed treatment and followup care. Diagnostic
                   services may include x-rays of the mouth; preventive services may include
                   cleanings, topical fluoride applications, and dental sealants. Dental
                   treatment covers a wide range of services such as fillings; tooth
                   extractions; and pulpotomies, which are often referred to as “baby root
                   canals.”
                   In recent years, a number of individual dental providers and chains have
                   been prosecuted for providing services that were medically unnecessary or
                   that failed to meet professionally recognized standards of care. These
                   providers have often been found to have suspect Medicaid billing patterns
                   when compared to their peers. For example, FORBA Holdings, LLC
                   (FORBA), a dental management company that manages clinics nationwide
                   known as “Small Smiles Centers,” settled with the United States in 2010
                   for $24 million to resolve allegations of providing services that were either
                   medically unnecessary or performed in a manner that failed to meet
                   professionally recognized standards of care to children with Medicaid.4
                   As part of the settlement, FORBA agreed to enter into a 5-year Corporate
                   Integrity Agreement with the Office of Inspector General (OIG). FORBA
                   subsequently changed its name to Church Street Health Management,
                   LLC, and was then acquired by CSHM, LLC.


                   1
                     Thomas P. Wall, Dental Medicaid – 2012, American Dental Association (ADA), 2012.
                   2
                     Centers for Medicare & Medicaid Services (CMS), Annual EPSDT Participation
                   Report, Form CMS-416 (National), Fiscal Year 2012, April 3, 2014.
                   3
                     Social Security Act (SSA) § 1905(r)(3); 42 CFR § 441.56. Dental services are covered
                   up to age 18, but States may choose to extend eligibility through age 21. Louisiana is
                   among the States that have done so. 

                   4
                     U.S. Department of Justice (DOJ), National Dental Management Company Pays 

                   $24 Million to Resolve Fraud Allegations, January 20, 2010. Accessed at 

                   http://www.justice.gov/opa/pr/2010/January/10-civ-052.html on February 20, 2014.



Questionable Billing for Medicaid Pediatric Dental Services in Louisiana (OEI-02-14-00120)              1
                   In 2012, the Senate Finance and Judiciary Committees investigated CSHM
                   and concluded that contrary to CSHM’s claims, it is the de facto owner of
                   the Small Smiles clinics and that the ownership structure “undermined the
                   independent, professional, and clinical judgment of Small Smiles
                   dentists.”5 In April 2014, OIG excluded CSHM from participation in
                   Medicaid, Medicare, and all other Federal health care programs for a
                   period of 5 years.6 Other dental chains have also been investigated for
                   allegedly encouraging their providers to perform unnecessary procedures
                   to increase profits.7
                   Louisiana Medicaid Dental Claims
                   Louisiana covers biannual dental screenings for children with Medicaid, as
                   well as covering medically necessary treatment services. The biannual
                   screenings generally consist of an examination, x-rays, cleaning, a topical
                   fluoride application, and oral hygiene instruction. Treatment services
                   include fillings, crowns, and oral surgery. Louisiana has a number of
                   specific policy guidelines for when certain services are covered, as well as
                   frequency limitations for certain services. Additionally, the State requires
                   dental providers to seek prior authorization before providing certain
                   services, such as stainless steel crowns, pulpotomies, and certain
                   extractions and fillings. During the period that we reviewed, Louisiana
                   covered dental services on a fee-for-service basis. However, the State
                   transitioned these services from fee-for-service to managed care on July 1,
                   2014.
                   Louisiana has several systems in place to oversee Medicaid pediatric
                   dental claims. The State has claims-processing “edits”—system processes
                   to ensure proper payment of claims. Before paying for submitted claims,
                   the State uses these edits to review them. These edits ensure, among other

                   5
                     U.S. Senate Committee on Finance and Committee on the Judiciary, Joint Staff Report 

                   on the Corporate Practice of Dentistry in the Medicaid Program, page 10. Accessed at 

                   www.finance.senate.gov/library/prints/download/?id=1c7233e0-9d08-4b83-a530-
                   b761c57a900b on February 20, 2014. 

                   6
                     The exclusion is effective September 30, 2014. OIG, OIG Excludes Pediatric Dental

                   Management Chain From Participation in Federal Health Care Programs. Accessed at 

                   http://oig.hhs.gov/newsroom/news-releases/2014/cshm.asp on April 4, 2014. 

                   7
                     In addition to CSHM, the Senate Finance and Judiciary Committees investigated the 

                   following chains: Kool Smiles, ReachOut Healthcare America, Heartland Dental Care, 

                   and Aspen Dental Management. In addition, other dental chains have also been the 

                   subject of Federal and State investigations. For example, in 2012, the All Smiles chain

                   and its owner agreed to pay the United States and State of Texas $1.2 million to resolve 

                   allegations that they violated the civil False Claims Act and the Texas Medicaid Fraud

                   Prevention Act. DOJ, Texas Orthodontic Clinic and Former Owner Resolve Allegations

                   of False Medicaid Claims, March 21, 2012. Accessed at 

                   http://www.justice.gov/usao/txn/PressRelease/2012/MAR2012/mar21Malouf_AllSmiles_
                   Settlement_PR.html on June 13, 2014.




Questionable Billing for Medicaid Pediatric Dental Services in Louisiana (OEI-02-14-00120)                 2
                   things, that the services were provided by Medicaid-enrolled providers and
                   do not exceed frequency limitations. The edits also check (when
                   applicable) whether the State granted prior authorization.
                   The State conducts additional analyses to verify provider compliance with
                   Medicaid policies and regulations. Reviews can be based on referrals,
                   complaints received, or internal analyses. The State may focus on specific
                   children with Medicaid who received services, on specific services, or on
                   dental providers. If the State is looking at providers, it generates billing
                   reports by provider, as well as detailed information about 20 randomly
                   selected children with Medicaid who received services from each of the
                   providers reviewed. For each sampled child, the State requests treatment
                   records from the provider. Under the direction of a dentist, a dental
                   hygienist reviews these records. Providers who are found to be out of
                   compliance with Medicaid regulations may be subject to having their
                   Medicaid payments recouped or to administrative sanctions, including
                   withholding of Medicaid payments, referral to the Attorney General’s
                   Office and/or the State Board of Dentistry for investigation, and
                   termination from the Medicaid program.
                   Related Work
                   This report is part of a series. Other reports in this series will examine
                   Medicaid dental providers in other States. An additional report covering
                   multiple States will determine the extent to which children enrolled in
                   Medicaid received dental services.
                   The first report in this series identified 23 general dentists and
                   6 orthodontists with questionable billing in New York.8 Medicaid paid
                   these providers $13.2 million for pediatric dental services in 2012. Almost
                   a third of the general dentists were associated with a single dental chain
                   that had settled lawsuits for providing services that were medically
                   unnecessary or that failed to meet professionally recognized standards of
                   care to children.
                   In addition, a recent OIG audit found that providers inappropriately billed
                   for orthodontic services provided to 43 of 100 sampled beneficiaries in
                   New York City, totaling an estimated $7.8 million in inappropriate
                   reimbursement.9 Some of these services were provided without the
                   required approval, whereas other services were undocumented or were
                   never provided. These deficiencies occurred because the State agency and
                   providers did not ensure that cases were reviewed annually to determine

                   8
                     OIG, Questionable Billing for Medicaid Pediatric Dental Services in New York,
                   OEI-02-12-00330, March 2014. 

                   9
                     OIG, New York Improperly Claimed Medicaid Reimbursement for Orthodontic Services 

                   to Beneficiaries in New York City, A-02-11-01003, October 2013. 



Questionable Billing for Medicaid Pediatric Dental Services in Louisiana (OEI-02-14-00120)          3
                   the need for continuing care and did not ensure that services were
                   adequately documented.

                   METHODOLOGY
                   We based our analysis on Medicaid paid dental claims provided by
                   Louisiana with service dates from January 1, 2012, through December 31,
                   2012. We excluded claims for services with special payment rates, such as
                   those submitted by Federally Qualified Health Centers; State and local
                   agencies; and facilities operated by university dental-school clinics.10 We
                   analyzed claims from “rendering dental providers”—the providers who
                   provided the services, as opposed to billing providers—to ensure that we
                   compared claims from the providers who performed the services.
                   We focused our analysis on general dentists and oral surgeons. We
                   analyzed the two provider types separately because their billing patterns
                   varied significantly. We did not include pediatric dental specialists
                   because the wide variation in their billing behavior made it difficult to
                   analyze them as one peer group. Some pediatric dental specialists provide
                   services that make them similar to general dentists, while others provide
                   more complex services. In addition, we did not do a separate analysis of
                   orthodontists or endodontists because there were too few to analyze.11
                   General Dentists
                   Our analysis focused on 512 general dentists who provided services to
                   50 or more children with Medicaid during 2012.12 These dentists served a
                   total of 316,955 children with Medicaid. We developed a number of
                   measures to identify dentists with questionable billing who are extreme
                   outliers when compared to their peers. We developed these measures
                   based on input from officials from CMS, The American Academy of
                   Pediatric Dentistry, and The American Dental Association. We also
                   discussed these measures—as well as the State’s oversight of Medicaid
                   pediatric dental claims—with staff from the State Medicaid agency, i.e.,
                   the Louisiana Department of Health and Hospitals. We developed these
                   measures to capture several different types of fraud, waste, and abuse. For
                   these measures, we included only the children with Medicaid served by
                   these dental providers; we did not include other children whom they
                   served.

                   10
                      We also excluded services provided in a hospital setting because these services differ
                   greatly from services provided in an office setting. In total, we identified 840 dental
                   providers who provided services to children with Medicaid in 2012 on a fee-for-service
                   basis.
                   11
                      Only seven orthodontists and three endodontists received payment for services in 2012.
                   12
                      A total of 704 general dentists provided services to children with Medicaid in 2012.


Questionable Billing for Medicaid Pediatric Dental Services in Louisiana (OEI-02-14-00120)                4
                   For each general dentist, we calculated the following three measures for
                   2012:
                        •    the average Medicaid payment per child served,
                        •    the average number of services provided per day, and
                        •    the average number of services provided per child per visit.
                   We developed four additional measures for general dentists who provided
                   selected services in 2012. For each dentist who provided the following
                   service, we calculated the proportion of children with Medicaid who
                   received:
                        •    fillings,
                        •    extractions,
                        •    stainless steel crowns, and
                        •    pulpotomies.
                   For each measure, we analyzed the averages and the distribution for all
                   general dentists.
                   Next, we set a threshold for each measure that, if exceeded, indicated that
                   the dentist had billed an extremely high amount or number compared to
                   other general dentists in the State. We used a standard technique for
                   identifying outliers, known as the Tukey method.13 Under the Tukey
                   method, outliers are values greater than the 75th percentile plus 1.5 times
                   the interquartile range. Additionally, under this method, extreme outliers
                   are values greater than the 75th percentile plus 3 times the interquartile
                   range. For this study, we employed this more conservative approach to
                   identify extreme outliers. We considered dentists who exceeded one or
                   more of these thresholds to have questionable billing.
                   Oral Surgeons
                   Unlike general dentists, who provide a variety of services, oral surgeons
                   typically perform a more complex set of procedures. For this analysis, we
                   analyzed 41 oral surgeons who provided services to 50 or more children
                   with Medicaid in 2012.14 These oral surgeons served a total of
                   8,358 children with Medicaid.
                   For this analysis, we calculated three measures for each oral surgeon:
                        •    the average Medicaid payment per child served,


                   13
                     See J.W. Tukey, Exploratory Data Analysis. Addison-Wesley, 1977. 

                   14
                     A total of 58 oral surgeons provided services to children with Medicaid in 2012. Of 

                   these, 41 oral surgeons provided services to 50 or more children with Medicaid. 



Questionable Billing for Medicaid Pediatric Dental Services in Louisiana (OEI-02-14-00120)                   5
                        •    the average number of services provided per day, and
                        •    the average number of services provided per child per visit.
                   As with our analysis for general dentists, for each of these measures, we
                   set the thresholds for extreme outliers at the 75th percentile plus 3 times
                   the interquartile range. Oral surgeons who exceeded these thresholds were
                   extreme outliers compared to their peers and were considered to have
                   questionable billing.
                   Additional Analysis
                   For each general dentist or oral surgeon who exceeded one or more of the
                   thresholds, we conducted Internet searches on the provider’s background
                   and analyzed his or her claims and payment history. In a few cases, we
                   excluded dentists or oral surgeons who were actually specialists but had
                   not indicated this on their claims. For the remaining providers, we
                   determined which providers worked for a dental chain in 2012, based on
                   the billing names associated with their claims.15 Finally, we researched
                   public records available on LexisNexis and from the Louisiana State
                   licensing board to determine whether the providers had ever been
                   sanctioned by the board.
                   Limitations
                   We designed this study to identify general dentists and oral surgeons who
                   warrant further scrutiny. None of the measures we analyzed confirm that a
                   particular provider is engaging in fraudulent or abusive practices. Some
                   providers may be billing extremely large amounts or numbers for
                   legitimate reasons.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




                   15
                     We considered a company to be a dental chain if it had five or more locations within a
                   State or around the country.


Questionable Billing for Medicaid Pediatric Dental Services in Louisiana (OEI-02-14-00120)                6
                   FINDINGS
                   Twenty-six general dentists and one oral surgeon in
                   Louisiana had questionable billing in 2012
                   We identified 26 general dentists and 1 oral surgeon with questionable
                   billing.16 We identified these providers by looking at general dentists and
                   oral surgeons in Louisiana who served more than 50 children with
                   Medicaid in 2012.
                   The providers with questionable billing are extreme outliers when
                   compared to their peers. They make up 5 percent of the general dentists
                   and oral surgeons we reviewed, and they provided care to 9 percent of the
                   children with Medicaid served by the providers we reviewed.17 Medicaid
                   paid these 27 providers $12.4 million for pediatric dental services in 2012.
                   Almost a third of the providers with questionable billing worked for two
                   dental chains. In addition, four of the providers with questionable billing
                   had previously been sanctioned by the State Board of Dentistry.
                   These billing patterns indicate that certain dental providers may be billing
                   for services that are not medically necessary or were never provided.
                   They also raise concerns about quality of care and whether children
                   treated by these providers were harmed by these procedures. Although
                   some of their billing may be legitimate, providers who bill for extremely
                   large numbers of services warrant further scrutiny.

                   Six General Dentists Received Extremely High Payments Per
                   Child

                   General dentists in Louisiana received an average payment of $264 for
                   each child with Medicaid. Six dentists, however, received more than two
                   times this amount, or an average of more than $700 per child.18 These
                   dentists received more than $2,000 per child for a total of 237 children.
                   One of these dentists received more than $8,000 for services provided to
                   one child over the course of three visits. Extremely high payments raise
                   concerns about whether these dentists are billing for unnecessary services
                   or services that they did not provide. See Table 1 for more information on


                   16
                      Several dental providers exceeded multiple questionable billing thresholds.
                   17
                      The 512 general dentists and 41 oral surgeons we reviewed served a total of
                   318,960 children with Medicaid; some children were seen by both a general dentist and
                   an oral surgeon.
                   18
                      Dental providers commonly exceeded (rather than just meeting) the thresholds for
                   questionable billing, and therefore the numbers in the text are sometimes greater than
                   those for the thresholds presented in the tables on pages 8 and 9.


Questionable Billing for Medicaid Pediatric Dental Services in Louisiana (OEI-02-14-00120)                  7
                   general dentists with extremely high average payments or numbers of
                   services.

                   Table 1: General Dentists With Extremely High Average Payments or Large
                   Numbers of Services

                                                                                   Threshold of          Number of Dentists
                              Measure                 Average for General          Questionable            Who Exceeded
                                                          Dentists *                  Billing               Threshold

                     Average Payments Per
                                                                         $264                 $663                        6
                     Child
                     Average Number of
                                                                            27                  134                       3
                     Services Per Day
                     Average Number of
                     Services Per Child Per                                  4                     6                    10
                     Visit

                     Source: OIG analysis of Louisiana Medicaid claims data, 2013. 

                     Note: Three dentists exceeded two thresholds. 

                     * Includes general dentists who served 50 or more children with Medicaid in 2012.



                   Three General Dentists Provided an Extremely Large Number of
                   Services Per Day
                   General dentists in Louisiana provided an average of 27 services per day
                   to children with Medicaid. Three dentists each averaged 146 or more
                   services per day. These dentists provided extremely large numbers of
                   services on certain days of the year, with 1 dentist providing 376 services
                   in a single day. If this dentist spent only 5 minutes performing each
                   service, it would have taken over 31 hours to complete all of these
                   services. An extraordinarily large number of services per day raises
                   concerns that a dentist may be billing for services that were not necessary
                   or were never provided, as well as raising concerns about the quality of
                   care being provided.

                   Ten General Dentists Provided an Extremely Large Number of
                   Services Per Child Per Visit
                   General dentists in Louisiana provided an average of four services per
                   Medicaid child during a single visit. Ten dentists, however, averaged 6 or
                   more services per child per visit, with 1 dentist averaging 11 services per
                   child per visit.
                   These dentists provided extremely large numbers of services to certain
                   children during a single visit, raising concerns both about potential
                   fraudulent billing and about quality of care. Seven of these dentists
                   provided more than 20 services in a single visit to a total of 170 children.
                   One dentist provided more than 30 services to a child during a single visit.



Questionable Billing for Medicaid Pediatric Dental Services in Louisiana (OEI-02-14-00120)                                    8
                   These services primarily consisted of large numbers of fillings and direct
                   pulp caps. (A direct pulp cap is an alternative to a root canal.)
                   Additionally, as a part of these services, these dentists also provided a
                   large number of x-rays, which can raise concerns about potentially
                   unnecessary exposure to radiation. For example, 3 of these dentists
                   provided 6 x-rays per visit to at least 700 children; 2 of these dentists
                   provided 6 x-rays to more than 1,200 children. On average, general
                   dentists provided only one x-ray per child per visit.

                   Thirteen General Dentists Provided Selected Services to an
                   Extremely High Proportion of Children They Served
                   When compared to their peers in the State, 13 general dentists provided
                   selected services to an extremely high proportion of children with
                   Medicaid that they served.19 This billing behavior warrants further
                   scrutiny, as it may indicate billing for services that were not medically
                   necessary or were never provided. It also raises concerns about quality of
                   care and whether or not children treated by these dentists were harmed by
                   these procedures. See Table 2 for more information on general dentists
                   who provided selected services to an extremely high proportion of
                   children.


                   Table 2: General Dentists Who Provided Selected Services to an Extremely
                   High Proportion of Children With Medicaid They Served

                                                                                  Threshold of
                             Measure                 Average for General          Questionable           Number of Dentists
                                                          Dentists *                 Billing               Who Exceeded
                                                                                                            Threshold
                     Proportion of children
                                                                           3%                  13%                        6
                     who received pulpotomies
                     Proportion of children
                                                                         11%                   36%                        6
                     who received extractions
                     Proportion of children
                     who received stainless                                6%                  26%                        1
                     steel crowns
                     Proportion of children
                                                                         33%                   91%                        1
                     who received fillings

                     Source: OIG analysis of Louisiana Medicaid claims data, 2013. 

                     Note: One dentist exceeded two thresholds. 

                     * Includes general dentists who served 50 or more children with Medicaid in 2012.




                   Pulpotomies. Six general dentists provided pulpotomies to an extremely
                   high proportion of children with Medicaid that they served. Fourteen

                   19
                      As previously noted, pulpotomies, stainless steel crowns, and certain extractions and
                   fillings require prior authorization.


Questionable Billing for Medicaid Pediatric Dental Services in Louisiana (OEI-02-14-00120)                                    9
                   percent or more of the children served by these dentists received
                   pulpotomies, compared to an average of only 3 percent of children served
                   by all general dentists who provided pulpotomies. One dentist provided
                   pulpotomies to 19 percent of the children that he served.
                   In addition, these dentists provided a large number of pulpotomies per
                   child during a single visit in 2012. For example, one of these dentists
                   provided 13 pulpotomies during the same visit to a 3-year old child.
                   During this same visit, the dentist provided the child a total of 31 services,
                   including 10 stainless steel crowns and 4 fillings.
                   Extractions. Six general dentists performed extractions on an extremely
                   high proportion of the children with Medicaid that they served.
                   Forty percent or more of the children served by these dentists had one or
                   more teeth extracted, compared to an average of 11 percent of children
                   served by general dentists performing extractions in the State. One dentist
                   performed extractions on 70 percent of the children he served.
                   Stainless Steel Crowns. One general dentist provided stainless steel
                   crowns to an extremely high proportion of the children with Medicaid that
                   she served. Thirty-two percent of the children served by this dentist
                   received stainless steel crowns, compared to an average of 6 percent of
                   children served by all general dentists who provided stainless steel
                   crowns. This dentist provided four or more stainless steel crowns during a
                   single visit to over 100 children with Medicaid. These children ranged in
                   age from 1 to 8 years, with an average age of 4 years. In the most extreme
                   example, this dentist provided 10 stainless steel crowns to a 2-year-old
                   child during a single visit.
                   Fillings. One general dentist provided fillings to an extremely high
                   proportion of the children with Medicaid that he served. Ninety-two
                   percent of the children served by this dentist received fillings, compared to
                   an average of 33 percent of children served by all general dentists who
                   provided fillings.

                   One Oral Surgeon Provided an Extremely Large Number of
                   Services Per Day
                   Oral surgeons in Louisiana provided an average of 10 services per day to
                   children with Medicaid in 2012. One oral surgeon, however, provided an
                   average of 31 services per day. Moreover, he provided 50 or more
                   services on 12 days and 73 services in 1 day. This provider primarily
                   performed extractions, which made up 61 percent of the services he
                   provided in 2012. Given that procedures performed by oral surgeons may
                   take more time than routine dental services, this provider’s billing patterns



Questionable Billing for Medicaid Pediatric Dental Services in Louisiana (OEI-02-14-00120)      10
                   raise concerns both about potential fraudulent billing and about quality of
                   care and children’s safety.
                   Almost a Third of the Providers With Questionable Billing
                   Worked for Two Dental Chains
                   Of the 27 dental providers with questionable billing, 8 worked for 2 dental
                   chains. A concentration of dental providers with questionable billing in
                   chains raises concerns that these chains may be encouraging their
                   providers to perform unnecessary procedures to increase profits.
                   Four of the eight providers worked for a chain that operates mobile
                   school-based clinics around the country. This chain has been the subject
                   of investigations arising from complaints that dentists affiliated with it had
                   treated children without their parents’ permission and had provided
                   medically unnecessary services.20 The Senate Finance and Judiciary
                   Committees also investigated this chain, citing a potential pattern of
                   treatment without parental consent. 21 For example, according to the
                   Committees’ report, a 4-year-old “medically fragile” boy in Arizona was
                   treated without a parent’s consent, receiving pulpotomies and stainless
                   steel crowns while being physically restrained by three staff
                   members. Subsequent examinations initiated by the family suggested that
                   the dental work provided was unnecessary.
                   Another four providers worked for a Louisiana-based chain. All four
                   providers performed extractions on an extremely high proportion of the
                   children with Medicaid that they served. In addition, two of these
                   providers received extremely high payments per child.

                   Four of the Providers With Questionable Billing Had Actions
                   Taken Against Them by the State Board of Dentistry
                   Two of the general dentists with questionable billing had previously been
                   subject to disciplinary action by the Louisiana Board of Dentistry. The
                   Board initiated disciplinary action against one dentist for illegally or
                   illegitimately prescribing, dispensing, or administering habit-forming or
                   other legally controlled substances, as well as failing to maintain accurate
                   logs of controlled substances. The Board initiated disciplinary action
                   against the other dentist for failing to provide access to treatment records.


                   20
                      Sydney P. Freedberg, Dental Abuse Seen Driven by Private Equity Investments,
                   Bloomberg News, May 16, 2012. Accessed at http://www.bloomberg.com/news/2012-
                   05-17/dental-abuse-seen-driven-by-private-equity-investments.html on April 25, 2014.
                   21
                      U.S. Senate Committee on Finance and Committee on the Judiciary, Joint Staff Report
                   on the Corporate Practice of Dentistry in the Medicaid Program. Accessed at
                   www.finance.senate.gov/library/prints/download/?id=1c7233e0-9d08-4b83-a530-
                   b761c57a900b on February 20, 2014.


Questionable Billing for Medicaid Pediatric Dental Services in Louisiana (OEI-02-14-00120)              11
                   Additionally, two other dentists had received violations from the Board for
                   advertising that included fraudulent, false, deceptive, or misleading
                   content.




Questionable Billing for Medicaid Pediatric Dental Services in Louisiana (OEI-02-14-00120)   12
                   CONCLUSION AND RECOMMENDATIONS
                   Dental providers who participate in Medicaid provide much-needed access to
                   dental services for children in the program. When children lack such access,
                   untreated decay and infection in their mouths can result in more complicated and
                   expensive dental and medical interventions later in life. At the same time, we
                   have concerns about the extreme billing patterns of a number of general dentists
                   and one oral surgeon in Louisiana. Specifically, these 27 providers—representing
                   5 percent of the providers we reviewed—received extremely high payments per
                   child; provided an extremely large number of services per day; provided an
                   extremely large number of services per child per visit; and/or provided certain
                   selected services to an extremely high proportion of children. Medicaid paid
                   these providers $12.4 million for pediatric dental services in 2012. Although
                   some of their billing may be legitimate, providers who bill for extremely large
                   numbers of services warrant further scrutiny.
                   Our findings raise concerns that certain dental providers may be billing for
                   services that are not medically necessary or were never provided. They also raise
                   concerns about the quality of care provided to these children. Prior OIG reports
                   have also found vulnerabilities in the oversight of Medicaid dental providers.
                   Additionally, OIG has identified some specific vulnerabilities regarding the
                   practices of certain dental chains. Notably, almost a third of the providers with
                   questionable billing worked for two chains. A concentration of such providers in
                   chains raises concerns that these chains may be encouraging their providers to
                   perform unnecessary procedures to increase profits. Further, four of the providers
                   with questionable billing had actions taken against them by the State Board of
                   Dentistry.
                   Together, these findings demonstrate the need to improve the oversight of
                   Medicaid pediatric dental services. OIG is committed to conducting additional
                   studies of dental providers. We are also committed to examining access to
                   Medicaid dental services and to continuing to conduct investigations and audits of
                   specific dental providers with questionable billing.
                   Louisiana must use the tools at its disposal to effectively identify and fight fraud,
                   waste, and abuse, while at the same time ensuring that children have adequate
                   access to quality dental care in the Medicaid program.
                   Therefore, we recommend that the Louisiana Department of Health and Hospitals:
                   Enhance its monitoring of dental providers to identify patterns of
                   questionable billing
                   The State should enhance its monitoring of Medicaid dental providers. To do this,
                   it should use this report’s measures to better identify providers with patterns of
                   questionable billing. In addition, the State should monitor dental chains to
                   determine whether providers with questionable billing are concentrated in certain


Questionable Billing for Medicaid Pediatric Dental Services in Louisiana (OEI-02-14-00120)         13
                   chains. The State should also ensure that it is appropriately authorizing services
                   prior to payment. Further, as the State transitions to managed care, it should
                   continue to collect detailed data that will allow it to conduct proactive data
                   analysis. The State should also ensure that managed care entities employ
                   adequate safeguards to monitor dental providers. Such monitoring can result in
                   cost savings, as well as ensuring that children receive quality dental care.
                   Take appropriate action on the dental providers identified as having
                   questionable billing
                   In a separate memorandum, we will refer to the State the dental providers whom
                   we identified as having questionable billing. The State should review these
                   providers’ billing patterns; review dental records and supporting documentation;
                   and/or perform unannounced site visits. Then the State should determine what
                   action(s) are most appropriate. These actions include, but are not limited to
                   (1) law enforcement actions, if fraud is identified; (2) referral to the State’s board
                   of dentistry for licensure violations; (3) recoupment of payments, if the State
                   determines that claims were paid in error; (4) revocation of Medicaid billing
                   privileges; (5) education about how to appropriately bill for pediatric dental
                   services; and (6) no action, if the State determines that a given provider does not
                   demonstrate a vulnerability to the program or to children with Medicaid.




Questionable Billing for Medicaid Pediatric Dental Services in Louisiana (OEI-02-14-00120)          14
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   The Louisiana Department of Health and Hospitals (the Department) concurred
                   with both of our recommendations. The Department noted that as a result of our
                   review, it has implemented corrective actions to address both recommendations.

                   The Department concurred with our first recommendation and described its
                   efforts to enhance its monitoring of dental providers. As of July 1, 2014, all
                   children with Medicaid in Louisiana are provided dental services through the
                   Medicaid Dental Benefits Manager (DBM). The Department stated that it
                   requires the DBM to monitor, investigate, and report egregious billing patterns of
                   dental providers serving Medicaid recipients. Additionally, the Department said
                   that its Program Integrity Unit will closely monitor the new DBM to ensure that
                   activities to prevent and detect fraud, waste, and abuse are in place to ensure the
                   programmatic and fiscal integrity of the dental plan. The Department added that
                   it will put measures in place to identify providers with questionable billing
                   patterns and that it will recommend safeguards, such as auditing of records, to the
                   DBM in order to provide assurance that Medicaid recipients receive quality,
                   medically necessary dental care.

                   The Department concurred with our second recommendation and described its
                   plans to take appropriate action regarding the dental providers identified as having
                   questionable billing. The Department stated that it will perform a comprehensive
                   audit of these providers by requesting dental records and supporting
                   documentation. In addition, the Department said that it will perform a thorough
                   review of these providers’ practice types against their respective billing histories
                   to validate the outlier analysis. The Department stated that it will take appropriate
                   actions, depending on what it finds in its analysis.
                   The full text of the Department’s comments is provided in the Appendix.




Questionable Billing for Medicaid Pediatric Dental Services in Louisiana (OEI-02-14-00120)        15
                   APPENDIX

                   Agency Comments




Questionable Billing for Medicaid Pediatric Dental Services in Louisiana (OEI-02-14-00120)   16
                   APPENDIX A 


                   Agency Comments (continued) 


                                     Ritchie, Brian P. 

                                     July 24,2014 

                                     Page 2 





                                         • 	 Audit the 27 dental providers identified by the OIG:

                                              Upon receipt of the data and/or listing of providers identified in the OIG report, DHH
                                             will perform a comprehensive audit by requesting dental records and supporting
                                             documentation, A comprehensive analysis of each of the identified providers' billing
                                             patterns is necessary to isolate questionable claims and anomalies. This area of review
                                             will be significant because Louisiana has small group of providers with very large
                                             practices that target our Medicaid population. Once the identities of the twenty-seven
                                             providers are known, we will perform a thorough review of their practice type against
                                             their billing history to validate the outlier analysis and determine whether the seemingly
                                             excessive billing practices are anomalies, an abuse of the billing system, or merely the
                                             result of a high volume-low margin business model. Dependent upon DHH's independent
                                             findings, we will take appropriate actions based on the results which may include but are
                                             not limited to termination/exclusion, recoupment/sanctions, and if necessary, referral to
                                             the appropriate law enforcement agencies.

                                     In relation to this audit, we would like to thank your staff for their courtesy, and we look forward
                                     to working with your office in the future.

                                     If you have any questions or need any additional information about this matter, please do not
                                     hesitate to contact me.

                                     Sincerely,

                                         /S/
                                    J. Ruth Kennedy
                                    Medicaid Director

                                    JRK/JK

                                    c: 	 Michael Breland
                                         Mary Johnson
                                         John Korduner
                                         Jeff Reynolds
                                         Bill Root




Questionable Billing for Medicaid Pediatric Dental Services in Louisiana (OEI-02-14-00120)                                                  17
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Jodi Nudelman, Regional
                   Inspector General for Evaluation and Inspections in the New York regional office,
                   and Nancy Harrison and Meridith Seife, Deputy Regional Inspectors General.
                   Lucia Fort and Judy Kellis served as the team leaders for this study. Central
                   office staff who provided support include Clarence Arnold, Meghan Kearns, and
                   Christine Moritz.




Questionable Billing for Medicaid Pediatric Dental Services in Louisiana (OEI-02-14-00120)     18
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
